WAIVER

Supreme Court of the United States

No. 20-8199

Isiah Lamonte Brown v. California
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box:
ox Lam filing this-waiver on behalfof all respondents. ae sseerio

a Ionly represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

 

 

Please check the appropriate box:

Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

Q Iam not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form

to: Supreme Court, Attn: a NE, Washington, D.C. 20543).

Signature. is

 

 

 

Date: ual Le wu
(Type or print) Name __Rene Antonio Chacon
Mr. OMs. OMrs. O Miss
Firm Calif. Attorney General's Office = SSSSSS—C
Address ____455 Golden Gate Avenue, Suite 11000.

City & State __San Francisco, CA_______s Zip_9.4102

Phone __(415) 5103774_____ Email __rene.chacon@doj.ca.gov.

 

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

cc: Elizabeth Garfinkle, Esq.
CERTIFICATE OF SERVICE
Case Name: _ People v, Isiah L, Brown No. _ 20-8199

Thereby certify that on June 18, 2021, I electronically filed the following documents with the
Clerk of the Court by using the CM/ECF system:

WAIVER
Participants in the case who are registered CM/ECF users will be served by the CM/ECF system,

Tam employed in the Office of the Attorney General, which is the office of a member of the
California State Bar at which member's direction this service is made, I am 18 years of age or
older and not a party to this matter, I am familiar with the business practice at the Office of the
Attorney General for collection and processing of correspondence for mailing with the United
States Postal Service, In accordance with that practice, correspondence placed in the internal
mail collection system at the Office of the Attorney General is deposited with the United States
Postal Service with postage thereon fully prepaid that same day in the ordinary course of
business,

I further certify that some of the participants in the case are not registered CM/ECF users, On
June 18, 2021, I have caused to be mailed in the Office of the Attorney General's internal mail
system, the foregoing document(s) by First-Class Mail, postage prepaid, or have dispatched it to
a third party commercial carrier for delivery within three (3) calendar days to the following non-
CM/ECF participants:

Elizabeth Garfinkle
Attorney at Law

Post Office Box 13172
Oakland, CA 94661

I declare under penalty of perjury under the laws of the State of California and the United States
of America the foregoing is true and correct and that this declaration was executed on June 18
2021, at San Francisco, California,

T Pham /s/ T Pham
Declarant Signature

SF2018400104
42737654, 00x
